Highlights
Table of Contents




                    Misclassified
                    Training
                    Expenses
Findings
Recommendations




                    Management
                    Advisory Report
                    Report Number
                    DP-MA-14-003

                    September 16, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                          Background                                                          What the OIG Found
                                                        The U.S. Postal Service relies on monthly, quarterly, and           Postal Service employees misclassified $18.9 million of
                                                        annual financial reports to make informed decisions, which          operating expenses all as training expenses. Employees also
                                                        include monitoring training expenses. The Postal Service uses       misclassified $32.7 million of travel for training costs as training
                                                        a comprehensive financial accounting data collection and            for instruction and fees.
Findings




                                                        processing system to prepare these financial reports and collect
                                                        reliable and meaningful information to manage the organization.     Postal Service employees misclassified these expenses
                       The Postal Service overstated                                                                        because a budget memorandum provided incorrect guidance,
                                                        A key component of the accounting system is the use of 8-digit      and management did not properly configure the eTravel system
                         the general ledger expense     account numbers that segregate accounting data into the proper      to identify travel expenses associated with training.
                               account balances for     accounts within the chart of accounts. In fiscal years (FYs) 2013
                                                        and 2014 (through March 31, 2014), the Postal Service charged       As a result, the Postal Service overstated the general ledger
                     "Training - Instructor and Fees"   $60 million to the “Training - Instructor and Fees” account.        expense account balances for “Training - Instructor
Recommendations




                                                        Postal Service employees use this account to record tuition and     and Fees” by $51.6 million for FYs 2013 and 2014 (through
                                 by $51.6 million for   contract or fee-based payments to instructors.                      March 31, 2014), potentially impacting its ability to make
                                                                                                                            informed financial decisions.
                                FYs 2013 and 2014.
                                                        Our objective was to determine whether the Postal Service
                                                        properly classified training expenses within general ledger
                                                        accounts.
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                                     Print                                     1
Highlights
Table of Contents




                                                      What the OIG Recommended                                         and general ledger accounts to charge for meetings,
                                                                                                                       conferences, and training; and configure the eTravel system to
                                                      We recommended the Postal Service correct the
                                                                                                                       allocate travel costs to the proper general ledger account.
                                                      misclassification of expenses identified during the review for
                                                      FY 2014; issue a memorandum outlining the correct procedures
Findings




                                                                    Operating Expenses                                                           Misreported Travel -
                                                                    Misreported as Training -                                                    Training - Postal Service
                                                                    Instructor and Fees                                                          Expenses



                                                                                                            Roll over the
Recommendations




                                                                                                           information on
                                                                                  13 00                                                                        13 58
                                                                              Y 20 00,0                   the left and right                               Y 20 35,8
                                                                             F 5,3                                                                        F 1,5
                                                                              $1                            to reveal the                                  $2

                                                                                                         total misreported
                                                                                                        funds and the OIG
                                                                                    4*            4     recommendations                                          4*            4
                                                                                                                                                              01 2,20h331, 2
                                                                                                01                                                                           01
                                                                                2 01 ,304h 31, 2                                                             2
                                                                             FY ,573h Marc                    to correct                                  FY 1,19h Marc
                                                                              $3 roug                                                                      $1 roug
                                                                               *T
                                                                                  h
                                                                                                             the issues.                                    *T
                                                                                                                                                              h
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                              Print                                     2
Highlights
                    Transmittal Letter


                                                      September 16, 2014
Table of Contents




                                                      MEMORANDUM FOR:	           Maura A. McNerney
                                                      				                       VICE PRESIDENT, CONTROLLER

                                                      				
                                                                                     E-Signed by Janet Sorensen
                                                                                VERIFY authenticity with eSign Desktop



                                                      				
                                                      FROM: 			 Janet M. Sorensen
                                                      				      Deputy Assistant Inspector General
Findings




                                                      				       for Revenue and Resources

                                                      SUBJECT: 			               Management Advisory Report – Misclassified Training
                                                      				                       Expenses (Report Number DP-MA-14-003)

                                                      This report presents the results of our review of Misclassified Training Expenses
                                                      (Project Number 13RG033DP001).
Recommendations




                                                      We appreciate the cooperation and courtesies provided by your staff. If you have
                                                      any questions or need additional information, please contact Kevin H. Ellenberger,
                                                      director, Data Analysis and Performance, or me at 703-248-2100.

                                                      Attachment

                                                      cc: Corporate Audit and Response Management
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                          Print            3
Highlights
                    Table of Contents
                                                      Cover
                                                      Highlights.......................................................................................................1
                                                       Background.................................................................................................1
                                                       What the OIG Found...................................................................................1
Table of Contents




                                                       What the OIG Recommended.....................................................................2
                                                      Transmittal Letter...........................................................................................3
                                                      Findings.........................................................................................................5
                                                       Introduction.................................................................................................5
                                                       Conclusion..................................................................................................5
                                                       Training Expenses Incorrectly Recorded....................................................5
                                                      Recommendations........................................................................................7
                                                       Management’s Comments..........................................................................7
                                                       Evaluation of Management’s Comments....................................................7
                                                      Appendices....................................................................................................8
Findings




                                                       Appendix A: Additional Information.............................................................9
                                                         Background .............................................................................................9
                                                         Objective, Scope, and Methodology.......................................................10
                                                         Prior Audit Coverage..............................................................................10
                                                       Appendix B: Management’s Comments.................................................... 11
                                                      Contact Information.....................................................................................13
Recommendations
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                                Print                      4
Highlights
                    Findings                             Introduction
                                                         This management advisory presents the results of our self-initiated review of misclassified training expenses. Our objective was to
                                                         determine whether the U.S. Postal Service properly classified training expenses within general ledger accounts. See Appendix A
                                                         for additional information about this review.

                                                         The Postal Service relies on monthly, quarterly, and annual financial reports to make informed decisions, which include monitoring
                                                         training expenses. The Postal Service uses a comprehensive financial accounting data collection and processing system to
                                                         prepare these reports and provide reliable and meaningful information to manage the organization. A key component is the use of
Table of Contents




                                                         8-digit account numbers that segregate accounting data into the proper accounts within the chart of accounts.
                          Postal Service employees
                                                         Postal Service employees use 75 8-digit account numbers to record various types of training expenses. The accounts are
                        misclassified $18.9 million of   designed to enable the Postal Service to make informed financial decisions. Employees charge expenses to the various training
                                                         expense accounts based on the type of expense. For example, in fiscal years (FYs) 2013 and 2014 (through March 31, 2014), the
                                operating expenses       Postal Service charged $60 million to “Training - Instructor and Fees.” Employees use this account to record tuition and contract or
                                                         fee-based payments to instructors.
                               as training expenses.
                             They also misclassified     Conclusion
                               $32.7 million of travel   Postal Service employees misclassified $18.9 million of operating expenses all as training expenses. They also misclassified
                                                         $32.7 million of travel for training costs as training for instruction and fees.1 The misclassifications occurred because a budget
                        for training costs as training   memorandum provided incorrect guidance and management did not properly configure the eTravel2 system to identify travel
Findings




                                                         expenses associated with training. As a result, the Postal Service overstated the general ledger expense account balances for
                            for instruction and fees.    “Training - Instructor and Fees” by $51.6 million for FYs 2013 and 2014 (through March 31, 2014), potentially impacting the
                                                         Postal Service’s ability to make informed financial decisions.

                                                         Training Expenses Incorrectly Recorded
                                                         In FYs 2013 and 2014 (through March 31, 2014), the Postal Service misclassified $18.9 million of operating expenses from its
Recommendations




                                                         training center - the National Center for Employee Development (NCED)3 - as “Training - Instructor and Fees” (see Table 1). In
                                                         2012, maintenance and human resources training and development, with senior level approval, agreed how to fund the NCED.
                                                         As a result, the NCED allocates a portion of its annual operating expenses4 monthly to each of the seven Postal Service areas
                                                         using the “Training - Instructor and Fees” account rather than operating expense accounts. A Postal Service Headquarters budget
                                                         memorandum established this procedure.5
Appendices




                                                         1	   The Postal Service records tuition fees and payment to instructors on a contract or fee basis to General Ledger Account 52363.
                                                         2	   The eTravel system is the online application used to create work travel expense reports.
                                                         3	   The NCED is in Norman, OK.
                                                         4	   Operating expenses include supplies, contract services, salaries and benefits, depreciation, and other administrative and program expenses.
                                                         5	   This procedure was established in a December 2012 email message from the Postal Service field budget manager to field controllers and budget managers.
                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                                                             Print                                     5
Highlights                                            Table 1. NCED Operating Expenses Misclassified as Training - Instructor and Fees

                                                       Fiscal Year                  Amount
                                                       2013                              $ 15,300,000
                                                       2014                                3,573,304
                                                       (through March 31, 2014)

                                                       Total                             $ 18,873,304
                                                       Source: Postal Service records.
Table of Contents




                                                      We also noted the Postal Service misclassified $32.7 million of “Travel - Training - USPS” expenses as “Training - Instructor and
                                                      Fees,”6 in FYs 2013 and 2014 (through March 31, 2014) (see Table 2). This occurred because management did not properly
                                                      configure the eTravel system7 to identify travel expenses associated with training.

                                                      Table 2. Misclassified Travel - Training - Postal Service Expenses

                                                       Fiscal Year                              Amount
                                                       2013                                    $ 21,535,858
                                                       2014                                       11,192,203
                                                       (through March 31, 2014)

                                                       Total                                   $ 32,728,061
Findings




                                                       Source: Postal Service records.




                                                      The Postal Service is responsible for establishing and maintaining a system of management and accounting controls that
                                                      safeguards its assets. The incorrect procedural memorandum and improperly configured eTravel system led, the Postal Service
                                                      to overstate the general ledger expense account balances for “Training - Instructor and Fees,” potentially impacting
                                                      management’s ability to make informed financial decisions. Because the $36.8 million in prior year expenses is not material to
Recommendations




                                                      the financial statements, and the Postal Service cannot correct the misclassification, we are only recommending an adjustment
                                                      for FY 2014 expenses.
Appendices




                                                      6	 The Postal Service records its costs for instructors and trainees related to training conducted within the Postal Service to General Ledger Account 51413.
                                                      7	 The eTravel system is the online application used to create work travel expense reports.
                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                                                              Print                                   6
Highlights
                    Recommendations                     We recommend the vice president, Controller:

                                                        1.	 Correct the misclassification of the $14.8 million in expenses identified for fiscal year 2014 (through March 31, 2014), and
                                                            perform an analysis to identify and correct any additional misclassification that occurred after March 31, 2014.

                                                        2.	 Issue a memorandum outlining the correct procedures and general ledger accounts to charge for meetings, conferences,
                                                            and training.

                                                        3.	 Configure the eTravel system to allocate travel costs to the proper general ledger account based on the employee’s selected
Table of Contents




                                                            reason for travel.
                       We recommend management
                        correct the misclassification   Management’s Comments
                                                        Management disagreed with the misclassification of training expenses and recommendation 1, stating that the current accounting
                       of expenses identified during    treatment of charging training expenses on a per attendee basis to field units is appropriate and fairly represents the overall cost of
                        the review for FY 2014; issue   training. Management also disagreed with the data integrity classification of $18.9 million given that this amount was related to the
                                                        budgeted funds and not actual expenses.
                        a memorandum outlining the
                                                        Management agreed that eTravel expenses were charged to incorrect general ledger accounts. However, management disagreed
                             correct procedures and     that this weakens their ability to manage those expenses because managerial decisions are made based on the budget line
                                                        number and not the general ledger account number. Management also stated reallocating expenses from one account number
                            general ledger accounts
Findings




                                                        to another within the same financial performance line will not provide additional insight to those managing expenses and thus
                             to charge for meetings,    management does not consider the cited expenses to be misreported.

                          conferences, and training;    Management agreed with recommendations 2 and 3 and stated they will issue a Management Instruction that will include
                                                        definitions for meetings and conferences. Further, management is in the process of remapping the eTravel system to include
                                  and configure the     meetings, conferences, training categories, and new training categories as reasons for travel. Once this is completed,
                          eTravel system to allocate    management will issue a letter to the Officers outlining the changes and will provide the general ledger account information by
                                                        September 30, 2014.
Recommendations




                           travel costs to the proper
                                                        See Appendix B for management’s comments, in their entirety.
                             general ledger account.
                                                        Evaluation of Management’s Comments
                                                        The U.S. Postal Service Office of Inspector General (OIG) considers management’s comments to the report partially responsive.
                                                        Regarding recommendation 1, while the Postal Service developed an approach to provide a planned expense for the field to
                                                        fund the NCED, the incorrect general ledger account was charged as described in our report. Additionally, we disagree with
                                                        management’s opinion that data reliability is not affected because decisions are made using the higher level line item. As
                                                        discussed in our report, these errors may impact end users relying on this data.

                                                        The OIG considers management’s comments responsive to recommendations 2 and 3, and the corrective actions should resolve
Appendices




                                                        the issues identified in the report.




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                                     Print                                   7
Highlights
                    Appendices

                                                         Appendix A: Additional Information.............................................................9
                                                          Background .............................................................................................9
                                                          Objective, Scope, and Methodology.......................................................10
                          Click on the appendix title     Prior Audit Coverage..............................................................................10
Table of Contents




                           to the right to navigate to   Appendix B: Management’s Comments.................................................... 11

                                the section content.
Findings
Recommendations
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                            Print                     8
Highlights          Appendix A:                       Background
                    Additional Information            The Postal Service relies on monthly, quarterly, and annual financial reports to make informed decisions, which include monitoring
                                                      training expenses. The Postal Service uses the General Ledger Accounting and Financial Reporting System, a comprehensive
                                                      financial accounting data collection and processing system, to prepare these reports and collect reliable and meaningful
                                                      information to manage the organization. A key component of the system is the use of 8-digit account numbers that segregate
                                                      accounting data into the proper accounts within the chart of accounts.

                                                      In 2004, the Postal Service published Handbook F-20.8 The handbook describes the key components and processes of the
Table of Contents




                                                      system and also identifies the types of financial reports the system generates. The handbook also references selected policy and
                                                      procedures incorporated within the General Ledger Accounting and Financial Reporting System. The handbook helps systems
                                                      accountants fully understand the system and contains information such as:

                                                      ■■ An overview of the function and purpose of the General Ledger Accounting and Financial Reporting System.

                                                      ■■ Descriptions of the key components of the General Ledger Accounting and Financial Reporting System.

                                                      ■■ A list of the key standard and specialized reports the system generates.

                                                      ■■ Descriptions of the commitment accounting and budget accounting processes.

                                                      ■■ Steps the Postal Service takes to ensure that its financial information is reliable.
Findings




                                                      The Postal Service uses 75 8-digit account numbers to record the various types of training expenses. These accounts enable the
                                                      Postal Service to make informed financial decisions.

                                                      Postal Service employees charge expenses to the various training expense accounts based on the type of expense. For example,
                                                      in FYs 2013 and 2014 (through March 31, 2014), the Postal Service charged $60 million to “Training - Instructor and Fees.”
                                                      Employees use this account to record tuition and contract or fee-based payment to instructors.
Recommendations
Appendices




                                                      8	 Handbook F-20, General Ledger Accounting and Financial Reporting System, December 2004.
                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                                   Print                                 9
Highlights                                            Objective, Scope, and Methodology
                                                      Our objective was to determine whether the Postal Service properly classified training expenses within general ledger
                                                      accounts. The scope of this review was expenses charged to “Training - Instructor and Fees” during FYs 2013 and 2014
                                                      (through March 31, 2014). We did not review expenses related to the National Postal Forum.

                                                      To determine whether expenses were properly classified as training, we:

                                                      ■■ Obtained and reviewed supporting documentation for 60 judgmentally selected journal voucher9 transactions and interviewed
Table of Contents




                                                         credit cardholders to determine the rationale for classifying expenses.

                                                      ■■ Conducted a site visit to the St. Louis Accounting Service Center to identify the procedures and controls used to classify
                                                         expenses when a travel voucher is processed.

                                                      ■■ Obtained documentation to support travel expenses classified in General Ledger Account 52363, “Training - Instructor
                                                         and Fees.”

                                                      ■■ Obtained and reviewed supporting documentation for NCED expenditures allocated to area offices for operating expenses.

                                                      We conducted this review from September 2013 through September 2014, in accordance with the Council of the Inspectors
                                                      General on Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and
Findings




                                                      conclusions with management on June 19, 2014, and included their comments where appropriate.

                                                      We assessed the reliability of Enterprise Data Warehouse (EDW)10 computer-processed data. We traced sampled data to source
                                                      documentation as a part of our review to determine whether we can rely on the data. We also interviewed officials knowledgeable
                                                      about the data and concluded that the EDW data were sufficiently reliable for the purposes of this report.

                                                      Prior Audit Coverage
Recommendations




                                                      The OIG issued Fiscal Year 2013 Conference Costs (Report Number DP-AR-14-003, dated April 29, 2014). Our report found the
                                                      Postal Service should improve its procedures for monitoring and accounting for conference costs. Specifically, the Postal Service
                                                      was unable to immediately identify the number of FY 2013 conferences and their associated costs because management did not
                                                      have a process to accurately identify conference costs. Other federal agencies have programs to identify, track, and report publicly
                                                      on conference spending for events exceeding $100,000. Management agreed with the findings and recommendations 1 and 2.
                                                      Regarding recommendation 3, management stated the misclassified expenses cannot be transferred because they occurred in the
                                                      prior fiscal year.
Appendices




                                                      9	 A document that authorizes a business transaction to be entered in the book of accounts.
                                                      10	 EDW is a central, enterprise-wide database that contains information extracted from operational systems.
                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                                                                     Print             10
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                      Print   11
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                      Print   12
Highlights
Table of Contents
Findings




                                                         Contact us via our Hotline and FOIA forms, follow us on social
                                                      networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                             or abuse. Stay informed.
Recommendations




                                                                            1735 North Lynn Street
                                                                           Arlington, VA 22209-2020
                                                                                 (703) 248-2100
Appendices




                    Misclassified Training Expenses
                    Report Number DP-MA-14-003
                                                                                                                               Print   13
